               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE
                                               




        Domestic Air Mail Irregularities

                       Audit Report




                                         September 28, 2012

Report Number FT-AR-12-015
                                                                    September 28, 2012

                                                      Domestic Air Mail Irregularities

                                                         Report Number FT-AR-12-015




BACKGROUND:
Irregularities occur when air carrier        assess applicable penalties when they
personnel fail to protect or safeguard the   occurred. Further, management did not
mail from, for example, inclement            accurately calculate domestic air mail
weather, loss, destruction, or other         irregularity penalty amounts.
hazards while in the control or custody
of air carriers. The U.S. Postal Service’s   In addition to network and personnel
commercial air contract addresses            changes, these issues occurred
domestic air mail irregularities and         because management did not consider
states that liquidated damages will be       this program a high priority and did not
assessed for damaged or uprotected           obtain data necessary to monitor the
mail. Postal Service personnel at            process. Also, comprehensive written
commercial air stops record                  procedures for processing domestic air
irregularities when they occur and           mail irregularities did not exist and
transportation personnel adjudicate the      penalty amounts were automatically
irregularities or approve them for further   calculated based on outdated contract
processing. If approved, a penalty is        data. As a result, Postal Service
assessed and the amount paid to the air      personnel did not always assess or
carrier for transporting mail is reduced.    correctly assess penalties to air carriers,
                                             and the air carriers were not always held
The Postal Service paid about                accountable for safeguarding the mail.
$194 million for transporting mail from      We were not able to determine the
October 1, 2010, through May 31, 2012,       reasonableness of the $44,000 of
but only paid about $44,000 in claims        irregularity claims processed.
over nearly the same time period. The
objective was to determine whether           WHAT THE OIG RECOMMENDED:
domestic air mail irregularities             We recommended management
processing was effective.                    implement a process to readily obtain
                                             data to monitor whether recording
WHAT THE OIG FOUND:                          problems exist or claim deductions were
Domestic air mail irregularities             calculated accurately. We also
processing was not effective.                recommended implementing procedures
Specifically, management did not             for processing irregularities, and
monitor whether recording problems           providing all airports the means to report
existed or whether claim deductions          irregularities and verifying functionality
were calculated accurately. Also,            on a regular basis.
Postal Service personnel did not always
record irregularities for adjudication and   Link to review the entire report.
September 28, 2012

MEMORANDUM FOR:             MARY T. TAYLOR
                            MANAGER, AIR TRANSPORTATION OPERATIONS

                            ANGELA P. CANFIELD
                            MANAGER, DETROIT TRANSPORTATION AND
                            NETWORKS




FROM:                       John E. Cihota
                            Deputy Assistant Inspector General
                             for Financial Accountability

SUBJECT:                    Audit Report – Domestic Air Mail Irregularities
                            (Report Number FT-AR-12-015)

This report presents the results of our audit of Domestic Air Mail Irregularities (Project
Number 12BM004FT002).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, director,
Financial Reporting, or me at 703-248-2100.

Attachments

cc: Stephen J. Masse
    David E. Williams, Jr.
    Jacqueline K. Strako
    Corporate Audit and Response Management
Domestic Air Mail Irregularities                                                                                    FT-AR-12-015




                                                TABLE OF CONTENTS

Introduction ..................................................................................................................... 1 

Conclusion ...................................................................................................................... 2 

Oversight ......................................................................................................................... 2 

Recording Irregularities ................................................................................................... 3 

Penalty Calculation.......................................................................................................... 4 

Recommendations .......................................................................................................... 4 

Management’s Comments .............................................................................................. 5 

Evaluation of Management’s Comments ......................................................................... 5 

Appendix A: Additional Information ................................................................................. 6 

   Background ................................................................................................................. 6 

   Objective, Scope, and Methodology ............................................................................ 6 

   Prior Audit Coverage ................................................................................................... 7 

Appendix B: Management’s Comments .......................................................................... 8 
Domestic Air Mail Irregularities                                                                           FT-AR-12-015




Introduction

This report presents the results of our audit of domestic air mail irregularities (Project
Number 12BM004FT002). We identified these issues during our audit of the fiscal year
(FY) 2012 U.S. Postal Service Financial Statements – St. Louis Accounting Services.
The objective was to determine whether domestic air mail irregularities processing was
effective. This audit was self-initiated and addressed financial risk. See Appendix A for
additional information about this audit.

Irregularities occur when air carrier personnel fail to protect the mail. This includes
failure to protect or safeguard the mail from inclement weather, loss, destruction, or
other hazards while in the control or custody of air carriers. The commercial air
contract 1 addresses domestic air mail irregularities and states that liquidated damages
will be assessed for damaged or unprotected mail. Postal Service personnel at
commercial air stops 2 are responsible for recording irregularities when they occur.
Personnel create a Postal Service (PS) Form 2759, Report of Irregular Handling of Mail,
in the Surface Air Support System (SASS) Mobile application for adjudication and
penalty assessment, as applicable. 3 Once recorded, transportation personnel
adjudicate the irregularities. If the irregularity is approved, a penalty is assessed and the
amount paid to the air carrier for transporting the mail is reduced.

SASS Mobile is an online application for recording and adjudicating air carrier
irregularity events. It is a component of SASS, a system that calculates payments made
to air carriers. Both of these applications are maintained by a third-party contractor for
the Postal Service. Also, SASS does not produce any reports. All data are transmitted
to the Enterprise Data Warehouse for reporting purposes.

Irregularity claims processed in FY 2011 through April 19, 2012, totaled $43,700.
Although the value of these claims is not material, it is the only means the
Postal Service has to hold air carriers responsible for safeguarding the mail. In FY 2011,
the Postal Service paid commercial carriers about $117 million for handling and
transporting mail. In FY 2012, through May 31, 2012, that amount was about
$77 million.




1
  Contract CAIR-11, Air Transportation for Domestic Mail, dated October 1, 2011. This contract governs commercial
air transportation services for domestic mail.
2
  Air stops (or commercial airports) are points of shipment tender or delivery of mail.
3
  The adjudication of irregularities provides an official decision to further process and, as applicable, assess a penalty
regarding the incident submitted on PS Form 2759.
                                                              1
Domestic Air Mail Irregularities                                                     FT-AR-12-015



Conclusion

Domestic air mail irregularities processing was not effective. Specifically:
     Management did not monitor whether recording problems existed or whether claim
      deductions were calculated accurately.
     When irregularities occurred, Postal Service personnel did not always record them in
      SASS Mobile for adjudication and assess applicable penalties, as required.

     Management did not accurately calculate domestic air mail irregularity penalty
      amounts.

This occurred because management did not consider monitoring domestic air mail
irregularities to be a high priority. Rather, management advised that, due to contract
maturities, most irregularities once captured through this process are now captured
through air carrier performance measures (for example, failure to submit scanned data
in a timely manner) in the new contract. Also, theft of mail is governed by the U.S.
Postal Inspection Service or the U.S. Postal Service Office of Inspector General (OIG).
They also advised there have been network and personnel changes. 4

Best practices 5 suggest the attitude and philosophy of management can have a
profound effect on internal controls. Activities need to be established to monitor
performance measures and indicators. These controls should be aimed at validating the
propriety and integrity of both organizational and individual performance measures and
indicators.

As a result, Postal Service personnel are not always assessing or correctly assessing
penalties to air carriers nor are the air carriers always held accountable for safeguarding
the mail.

Oversight

Management did not adequately oversee the domestic air mail irregularities process.
Specifically, management did not monitor whether recording problems existed or
whether claim deductions were calculated accurately. Further, management could not
readily obtain FYs 2011 and 2012 summary or detailed transaction data related to
domestic air mail irregularity deductions when we requested the information. Initially,
personnel advised that if they request summary or detailed transaction data related to
irregularities deductions from the third-party contractor that maintains the SASS Mobile
application, they would incur additional costs. After conclusion of our fieldwork, they
learned they could obtain some payment data independently without cost.




4
    Postal Service closed air mail centers.
5
    Standards for Internal Control in the Federal Government, dated November 1999.


                                                          2
Domestic Air Mail Irregularities                                                                      FT-AR-12-015



According to Postal Service policy, 6 performance monitoring procedures are to be
established to ensure compliance with contract requirements. These procedures serve
as a guideline for identifying mishandlings and other service failures that affect the
delivery or security of the mail.

Recording Irregularities

When irregularities occur, Postal Service field personnel did not always record them in
SASS Mobile for adjudication and penalty assessment, as applicable. We judgmentally
sampled 12 of 58 commercial air stops 7 and verbally contacted personnel to determine
whether they recorded irregularities. We found that:

   Personnel at five air stops 8 advised they reported irregularities on a regular basis.

   At the Dallas air stop, personnel advised that if irregularities occurred they would
    report them; however, they have not had any irregularities since their commercial air
    mail volume has declined.

   At the Dulles air stop, personnel said they have not had any irregularities in the
    recent past because they work so well with the air carrier.

   At the Detroit air stop, personnel said they had 14 irregularities in FY 2012; however,
    they no longer have access to the SASS Mobile application to report them.9

   Personnel at the remaining four air stops 10 advised they do not report irregularities.

These issues occurred because the Postal Service did not have comprehensive written
procedures for processing domestic air mail irregularities. The Postal Service had
procedures for the SASS Mobile application 11 used to record mail irregularities.
However, it did not have comprehensive procedures for processing domestic air mail
irregularities at air stops or for subsequently adjudicating them.

According to Postal Service policy, 12 procedures are to be established to ensure
compliance with contract requirements. These procedures serve as a guideline for
identifying mishandlings and other service failures that affect the delivery or security of
the mail. According to the current commercial air contract implemented in October 2011,
failure to protect or safeguard the mail shall be reported to the air carrier via issuance of
a PS Form 2759 or its successor system within 24 hours, causing liquidated damages


6
  Postal Operations Manual, Chapter 5 - Mail Transportation, Section 52 - Air Transportation Service, paragraph 524,
Performance Monitoring, July 2002.
7
  Postal Service personnel provided a list of air stops. We did not confirm the completeness of this information.
8
  Las Vegas, Philadelphia, Salt Lake City, Chicago, and New York.
9
  To date these irregularities have not been reported.
10
   St. Louis, Los Angeles, San Francisco and Baltimore commercial air mail stops.
11
   MRR and IMTS Application User Guide – Mobile Repossession and Reassignment/Irregular Mail Tracking System,
Version 1.3, updated June 23, 2005.
12
   Postal Operations Manual, Chapter 5, paragraph 524.


                                                         3
Domestic Air Mail Irregularities                                                                         FT-AR-12-015



to be assessed. Also, according to Postal Service policy, performance monitoring
procedures are to be established to ensure compliance with contract requirements.

Penalty Calculation

Domestic air mail irregularity penalty amounts were not accurately calculated. Because
we could not validate penalty amounts for two judgmentally selected irregularities,
Postal Service personnel explained their methodology for the calculation. Further review
of the explanation disclosed that:

    The automated penalty calculation included a $50 charge per piece and a
     $50 charge per equipment type. However, based on contract requirements, the $50
     charge should be based only on handling unit. 13

    Automated penalty amounts were limited to $75. 14 We did not find a contract
     provision limiting penalty amounts.

    An administrative fee of $25 was automatically added to all automated penalty
     amounts. The contract allows administrative fees only when mail was totally
     destroyed or unsalvageable.

This occurred because penalty amounts were automatically calculated based on
information entered into the Logistics Contract Management System (LCMS) 15 under
the old contract, effective November 1, 2008, rather than the new contract, effective
October 2011. As a result of our audit, management updated LCMS information to align
with current contract requirements.

Recommendations

We recommend the manager, Air Transportation Operations:

1. Develop and implement a process to readily obtain information from the Surface Air
   Support System (SASS) and SASS Mobile in order to adequately monitor whether
   recording problems exist and whether claim deductions are calculated accurately.

2. Develop and implement procedures that address the entire process for processing
   domestic air mail irregularities, including field reporting, adjudication, and monitoring.

3. Provide all commercial air stops the necessary access to Surface Air Support
   System Mobile to report domestic air mail irregularities and verify functionality on a
   regular basis.


13
   Trays, sacks, flat tubs, or outsides (a piece not enclosed in a container), as well as other mail transport equipment
such as rolling stock and wire containers.
14
   Excluding the administrative fee.
15
   LCMS is a web-based software application that contains contract details used to calculate pay and/or performance.


                                                           4
Domestic Air Mail Irregularities                                               FT-AR-12-015



We recommend the manager, Air Transportation Operations, direct the manager,
Detroit Transportation and Networks, to:
         
4. Process the domestic air mail irregularities identified in this audit.

Management’s Comments

Management generally agreed with all four recommendations. For recommendation 1,
although they do not believe the audit clarifies the error in the calculation of claim
deductions, beginning January 1, 2013, management stated they will conduct quarterly
audits of information in SASS and SASS Mobile to identify recording problems.

Regarding recommendation 2, management stated they will revise standard operating
procedures for domestic air mail irregularity reporting and distribute them to appropriate
personnel by January 31, 2013.

Further, for recommendation 3, management stated that by January 31, 2013, all
commercial air stops staffed with ramp clerks will have access to SASS Mobile, and
they will establish a process to monitor functionality.

Finally, for recommendation 4, management stated they will obtain necessary access to
SASS mobile for Detroit, MI employees and provide training as needed by
November 1 2012. In addition, discussion with management subsequent to receipt of
the comments disclosed they plan to record all irregularities identified during the audit.

See Appendix B for management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report. Although the OIG continues to believe all commercial air stops should have
access to SASS Mobile, ramp clerks are in the best position to identify irregularities, so
we believe management’s alternate action meets the intent of the recommendation.




                                              5
Domestic Air Mail Irregularities                                                                        FT-AR-12-015




                                   Appendix A: Additional Information

Background

The Postal Service contracts with commercial air carriers for transportation of domestic
mail. The commercial air contract 16 includes a clause that addresses domestic air mail
irregularities. 17 Prior to FY 2011, the contract included irregularities for failure to
dispatch mail, failure to submit scanned data in a timely manner, failure to safeguard or
protect mail, and theft of mail. Currently, only failure to safeguard or protect mail is
governed by the domestic air mail irregularities process. 18

Failure to safeguard or protect mail occurs when, for example, air carrier personnel
leave mail outside during inclement weather, drop mail, or leave mail unattended.
Postal Service personnel at commercial air stops are responsible for recording these
irregularities when they occur. Once recorded, transportation personnel adjudicate the
irregularities. If the irregularity is approved, the amount paid to the air carrier for
transporting the mail is reduced.

Objective, Scope, and Methodology

Our objective was to determine whether domestic air mail irregularities processing was
effective. To accomplish our objective we:

    Coordinated with headquarters, area, and field personnel to obtain an understanding
     of the process.

    Contacted Postal Service personnel at commercial air mail stops regarding their
     understanding of the irregularities process and whether the process was in place.

    Made inquiries to obtain policies and procedures for field-level processes and the
     adjudication process and to obtain inventory of devices used in the irregularities
     process.

    Extracted and analyzed transactions from SASS Mobile for the period October 2010
     through March 2012. 19

We conducted this audit from April through September 2012 in accordance with
generally accepted government auditing standards and included such tests of internal
16
   The current contract is CAIR-11, Air Transportation for Domestic Mail, dated October 1, 2011. There are currently
five commercial air carriers participating in the contract: Delta, Sun Country, Continental, U.S. Airways, and United.
17
   Irregularity claims processed in FYs 2011 and 2012, as of April 19, 2012, were $25,850 and $17,250, respectively.
Although the value of these claims is not material, it is the only means the Postal Service has to hold air carriers
responsible for safeguarding the mail.
18
   Failure to dispatch mail and failure to submit scanned data in a timely manner are governed by performance goals
incorporated in the contract. Theft of mail is governed by the Postal Inspection Service or the OIG.
19
   We extracted and analyzed transactions made from September 30, 2006, to March 31, 2012. However, the scope
of this audit included transactions from October 2010 to March 2012 only.


                                                          6
Domestic Air Mail Irregularities                                                    FT-AR-12-015



controls as we considered necessary under the circumstances. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective. We discussed our observations and
conclusions with management on August 28, 2012, and included their comments where
appropriate.

We relied on computer-generated data from SASS. We assessed the reliability of that
system’s data by tracing selected adjudicated claims to source records and to payment
data in the general ledger. We determined that the data were sufficiently reliable for the
purposes of this report.

Prior Audit Coverage

There were no prior audit reports pertaining to domestic air mail irregularities.




                                             7
Domestic Air Mail Irregularities                                 FT-AR-12-015



                             Appendix B: Management’s Comments




                                             8
Domestic Air Mail Irregularities       FT-AR-12-015




                                   9
Domestic Air Mail Irregularities        FT-AR-12-015




                                   10
Domestic Air Mail Irregularities        FT-AR-12-015




                                   11
